No. 19-783

In THE
Supreme Court of the Anited States

NATHAN VAN BUREN,

Petitioner,
Vv.

UNITED STATES,
Respondent.

CERTIFICATE OF SERVICE

As required by Supreme Court Rule 29.5 and the April 15, 2020 Order of this
Court, I certify that the Brief for Amicus Curiae Committee for Justice in Support of
Petitioner in Van Buren v. United States, No. 19-783, was served via electronic mail

on all parties required:

Jeffrey L. Fisher Jeffrey B. Wall

STANFORD LAW SCHOOL Acting Solicitor General
SUPREME COURT LITIGATION CLINIC DEPARTMENT OF JUSTICE

559 Nathan Abbott Way 950 Pennsylvania Avenue, NW
Stanford, CA 94305 Washington, D.C. 20530-0001
(650) 724-7081 (202) 514-2217
jlfisher@stanford.edu supremectbriefs@usdoj.gov
Counsel for Petitioner Counsel for Respondent

I declare under penalty of perjury that the foregoing is true and correct.

a

     

Date: July 8, 2020 “| “Anthony J. Dick
